Flat: 7 x 8 — Folded: 31/2 x 8

Diners Club®
Credit Card
Cardmember
Agreement

Cardmember Agreement

This document and the card carrier that is sent with the card
together make up your Card Agreement and throughout this
document are referred to as Agreement or Card Agreement.
The card carrier contains important account information, including
your annual percentage rates and Facts about Interest and
Fees. Please read and keep these documents for your records.
This Agreement is binding on you unless you cancel your account
within 30 days after receiving the card and you have not used or
authorized use of your account.
To simplify this Agreement for you, the following definitions
will apply. The words you, your, and yours mean all persons
responsible for complying with this Agreement, including the
person who applied to open the account and the person to
whom we address billing statements. The word card means one
or more cards we issue that allows you or an authorized user
to obtain credit under this Agreement. It also means any other
access device that allows you or an authorized user to obtain
credit, including your account number. The words we, us, and our
mean BMO Harris Bank N.A., the issuer of your account. The words
authorized user mean any person to whom you give permission
to use your account.

Disclosures for Active Duty Members of the Military
and their Dependents

The following applies to members of the military and their
dependents if, at the time you establish a covered account,
you are an active duty member of the military or you are a
dependent of an active duty member of the military (as set forth
in the Military Lending Act, 10 U.S.C. 987, and its implementing
regulations).
The Arbitration Provision of this Agreement does not apply to
individuals covered by this section.

Using Your Account and Your Credit Line

The card must be signed to be used. Whether you sign the card or
not, you are fully responsible for complying with all the terms of
this Agreement, including the obligation to pay us for all balances
due on your account as specified in this Agreement. Your card
must only be used for lawful transactions.
Your card can be used to buy or lease goods or services wherever
the card is honored. Your account has a credit limit. The full
amount of the credit limit is available to use where the card is
honored. Subject to applicable law, we may reduce your credit
limit at any time.
Your account may also include a cash limit, which will be a
percentage of and subject to your credit limit. With the Club
Cash® feature, your card can be used for cash advances through
any bank or automated teller machine that accepts the card
subject to your cash limit. We may reduce your cash limit at
any time, and we may limit the frequency and amount of cash
withdrawals you may make in any time period.

We will notify you of any new credit or cash limit either by
sending you a notice or through your billing statement. A change
to your cash or credit limits may take effect before you receive
notification from us. You should always keep your total balance
below the credit limit. However, if the total due goes over your
credit limit you must still pay us.

Additional Cards

You may request additional cards on your account for yourself or
others and you may permit an authorized user to have access to
the card or account number. However, if you do, you must pay us
for all charges made by those persons, including charges for which
you may not have intended to be responsible. You must notify us
to revoke an authorized user’s permission to use your account.
If you do so, we may close the account and issue a new card or
cards with a different account number. You are responsible for the
use of each card issued on your account according to the terms of
this Agreement.

Billing

Your billing statement shows the New Balance, any interest
charges or fees imposed during the billing cycle, the minimum
payment, and the payment due date. It also shows your current
credit limit; an itemized list of current charges, payments and
credits; an interest charge summary; and other important
information. If we deem your account uncollectible or if we
institute delinquency collection proceedings by sending it to an
outside collection agency or attorney for collection, we may, in our
sole discretion, stop sending billing statements, unless otherwise
prohibited by applicable law. You must notify us of a change in
your address by contacting Customer Service by telephone or mail.
We will mail or deliver the billing statement to only one address.

Automatic Billing Updater Service

We participate in the Mastercard® Automatic Billing Updater (ABU)
service. When your card number or expiration date is updated,
or your account is closed, we will provide the updated card
information to merchants who participate in ABU with whom you
have automatic billing arrangements (such as telephone, cable
companies, insurance and health clubs). Since not all merchants
participate in ABU, you should notify each merchant with whom
you have automatic billing arrangements of the updated card
information to ensure your payments are not interrupted. If you
do not want us to provide your card updates through ABU, please
call the customer service number on the back of your credit card
and allow 60 days for your opt out to take effect.

How We Determine the Balance

The total outstanding balance (the amount you owe us) appears
as the “New Balance” on the billing statement. To determine
the New Balance, we begin with the outstanding balance on
your account at the beginning of each billing period, called the
“Previous Balance” on the billing statement. We add any purchases
or cash advances and subtract any credits or payments credited as
of that billing period. We then add the appropriate Interest charges
and fees and make other applicable adjustments.

Annual Percentage Rates for Purchases and Cash
Advances

Your annual percentage rates and the corresponding daily periodic
rates appear on the Facts about Interest and Fees table. A daily
periodic rate is the applicable annual percentage rate divided by
365. Whether or not an annual percentage rate is based on the
U.S. Prime Rate plus a margin is indicated on the Facts about
Interest and Fees table. Please see the section entitled “Variable
Annual Percentage Rates for Purchases and Cash Advances” for
details relating to how these rates may change.

Variable Annual Percentage Rates for Purchases and
Cash Advances

The APR will vary with the market based on the Prime Rate. If
any annual percentage rate is based on the U.S. Prime Rate plus a
margin, we will calculate the rate for each billing period by adding
the applicable margin that appears on the Facts about Interest
and Fees table to the U.S. Prime Rate published in The Wall Street
Journal on the last day of each month. If the Wall Street Journal
is not published on that day we will use the rate published in
the immediately preceding edition. Any increase or decrease in
a variable annual percentage rate due to a change in the U.S.
Prime Rate takes effect as of the first day of the following billing
period. If The Wall Street Journal ceases publication or to publish
the U.S. Prime Rate, we may use the U.S. Prime Rate published in
any other newspaper of general circulation, or we may substitute
a similar reference rate at our sole discretion. When a change in
an applicable variable annual percentage rate takes effect we will
apply it to any existing balances, subject to any promotional rate
that may apply.
An increase in the variable annual percentage rate means you
will incur a higher interest charge, and perhaps a higher minimum
payment.

Promotional Rate and Fee Offers

At our discretion, we may offer you a promotional annual
percentage rate for all or a part of any balances. We may also
offer you a promotional fee. The period of time for which
the promotional rate applies may be limited. Any applicable
promotional rate or fee, the corresponding periodic rates, and the
period of time during which it is in effect will appear on the offer
or card carrier. Any promotional rate or fee offer will be subject to
the terms of the offer and this Agreement.

Interest Charges

Interest charges for purchases and cash advances will begin to
accrue from the date the transaction is added to the daily balance,
as described below, and continue to accrue until payment in full is
credited to your account. In order to be eligible for a grace period
and to avoid paying additional interest charges on purchases,
you must pay the total New Balance listed on the last billing
statement by the payment due date on that statement.

We will calculate interest charges as follows

The Balance Subject to Interest Rate on the billing statement is the
average daily balance of your account. We calculate the average

daily balance on your account in two categories: purchases and
cash advances.
• Purchases: We figure the interest charge on your account by
applying the periodic rate to the “average daily balance” of
your account. To get the “average daily balance” we take the
beginning balance of your account each day, add any such
interest charges and subtract any payments or credits. We do
not add in any new purchases. This gives us the daily balance.
Then, we add all the daily balances for the billing cycle together
and divide the total by the number of days in the billing
cycle. This gives us the “average daily balance.” This method
of calculating the balance subject to interest charge and the
periodic rate interest charges results in daily compounding of
interest charges.
• Cash advances: We figure the interest charge on your account
by applying the periodic rate to the “average daily balance”
of your account. To get the “average daily balance” we take
the beginning balance of your account each day, add any new
advances, and subtract any payments or credits. This gives us
the daily balance. Then, we add up all the daily balances for the
billing cycle and divide the total by the number of days in the
billing cycle. This gives us the “average daily balance.”
• We add a new purchase to the appropriate purchase balance as
of the Transaction date shown on your billing statement.
• We add a new cash advance to the appropriate purchase or
advance balance as of the Post date shown on your billing
statement. The Post date is the date we receive your request
for the cash advance.

Transaction Fee for Club Cash® Advances

You have obtained a cash advance for which we assess a cash
advance transaction fee if you obtain funds from an automated
teller machine (ATM), through home banking, or through a
financial institution; make a wire transfer; acquire a money order,
traveler’s check, lottery ticket, betting or casino chip, or similar
item; or engage in another similar transaction. For each cash
advance, we may add an additional fee in the amount printed in
Facts About Interest and Fees. The amount of the cash advance
may include a surcharge that the ATM owner imposes.

Minimum Interest Charge

If interest charges based on periodic rates are being added to your
account, but the total of such interest charges for purchases and
cash advances is less than $.50, we assess a minimum INTEREST
CHARGE, of $.50. We add the amount to the feature that is being
assessed an interest charge. If more than one feature is assessed
an interest charge, we may add the minimum interest charge to
any such feature at our discretion.

Credit Balance

You may not maintain a credit balance on your account in excess
of your credit limit. We will return to you any credit amount over
$1.00 if the amount has been on your account longer than six
months. You may request a refund of a credit balance at any time.

We may reduce the amount of any credit balance by the amount
of new charges billed to your account.

Transaction Fee for Purchases Made in Foreign
Currencies

For each purchase made in a foreign currency, we may add to your
account a transaction fee in the amount printed in Facts About
Interest and Fees.

Information on Foreign Currency Conversion
Procedures

You can make transactions in currencies other than U.S. dollars. If
you do, Mastercard will convert the amount of the transaction to
U.S. dollars. Mastercard uses either (1) a rate Mastercard selects
from the range of rates available in wholesale currency markets
for the applicable central processing date, or (2) a rate set by
a government for the applicable central processing date. The
conversion rate may be different from the published rate in effect
on the day that you made the transaction or that we posted the
transaction to your Account. If a transaction is converted by a
third party prior to that transaction being processed, the foreign
currency conversion rate will be the rate selected by that third
party.

Minimum Payment

Each month you must make a Minimum Payment that is
calculated as follows. First, we begin with the greater of any
amount that is past due or any amount in excess of your credit
limit. Second, we add the largest of the following:
•	The New Balance on the billing statement if it is less than $20;
• $20 if the New Balance is at least $20;
•	1% of (your New Balance less any new interest charges and
any new Late Fee) plus the amount of your billed interest
charges and any applicable late fee; we then round this number
down to the nearest dollar; or
•	1.5% of the New Balance (which calculation is rounded down to
the nearest dollar).
However, the Minimum Payment will never exceed your New
Balance. In calculating the Minimum Payment, we may subtract
from the New Balance certain fees added to your account during
the billing period.

Payments

You must pay at least the Total Minimum Payment Due shown
on each statement by the payment due date, and you may pay
more at any time without a penalty. The New Balance shown on
your billing statement may include amounts subject to different
periodic rates. Unless otherwise required by applicable law, we
will allocate the amount equal to your Total Minimum Payment
Due and credits to pay off balances at low periodic rates before
paying off balances at higher periodic rates. For any payment
amount over the Total Minimum Payment Due, we will allocate
such amounts to pay off balances at high periodic rates before
paying off balances at lower periodic rates. The sooner you pay
the New Balance, the less you will pay in interest charges. We
may also allow you to skip a payment. If we do, we will notify

you. If you choose to skip a payment when offered, we will
continue to assess interest charges.
Instructions for making payments are on your billing statement.
In order to be credited as of a particular day, your payment must
be received in the form specified, and by the hour specified,
in those instructions. Although we credit your payments as
described on your billing statement, we may not make credit
available on your Account in the amount of your payment right
away. Do not send cash payments. We can accept late or partial
payments, as well as payments that reflect “paid in full” or other
restrictive endorsements, without losing any of our rights under
this Agreement. You agree to pay us in U.S. dollars drawn on
funds on deposit in the United States using a payment check,
similar instrument, or automatic debit that will be processed and
honored by your bank. We reserve the right to accept payments
made in foreign currency and instruments drawn on funds on
deposit outside the United States. If we do, we will select the
effective currency conversion rate at our discretion and credit your
account in U.S. dollars after deducting any fees or costs incurred
in connection with processing your payment. If such fees or costs
are not fully deducted at the time your account is credited for a
payment, we will bill you separately for them.

Optional Payment Service

Online Payments. You may pay your account online or you may
request to make your payment by phone using our optional
telephone payment service. Subject to applicable law, each time
a representative of ours helps expedite your payment, you agree
to pay us $14.95. Our representatives are trained to tell you this
amount if you decide to use this optional telephone payment
service.
In-Branch Payments. If you have a Diners Club branded card,
you may deliver your payment during normal business hours to a
Customer Service Representative at any bank branch identified by
the BMO Harris name, brand or logo. We will credit such payments
on the day we receive them.

Late Fee

We will add a late fee to the standard purchase balance for
each billing period you fail to pay, by its due date, the Minimum
Payment. The late fee that applies to your account is the amount
printed in Facts About Interest and Fees. The fee will not exceed
the amount permitted by applicable law.

Returned Payment Fee

We may add a fee up to the amount printed in Facts About
Interest and Fees when a payment check or similar instrument
is not honored, when we must return it because it cannot be
processed, or when an automatic debit is returned unpaid. At
our option, we may assess this fee the first time your check or
payment is not honored, even if it is honored upon resubmission.
The fee will not exceed the amount permitted by applicable law.

Fees Disclosed at Time of Request

Unless prohibited by law, we also may charge you other fees from

time to time. If a fee applies to your account, we will tell you the
amount of the fee at the time you request the service.
Some fees that may apply to your account include:
1. A Replacement Card Fee if you request a replacement card;
2.	An Expedited Delivery Fee (in addition to any other applicable
fees) if you ask us to send a card by expedited delivery;
3.	A Dual Statement Fee if you ask us to send your Statements in
both paper and electronic form;
4.	A Document Fee if you ask us to provide copies of documents,
such as sales slips and receipts; and
5.	An Expedited Payment Fee if a representative of ours helps
expedite your payment.

Lost or Stolen Cards or Account Numbers

If any card or account number is lost or stolen, or if you think
someone used or may use them without your permission, notify
us at once by calling the Customer Service telephone number
shown on the billing statement or the number obtained by calling
toll-free or local Directory Assistance. We may require you to
provide certain information in writing to help us find out what
happened, and to comply with such procedures as we may require
in connection with our investigation. Don’t use the card or account
number after we’ve been notified, even if they are found or
returned. You may be liable for unauthorized use of the account,
but not for more than $50. You won’t be liable for unauthorized
purchases or cash advances made after we’ve been notified of the
loss or the theft; however, you must identify for us the charges
on the billing statement that were not made by you, or someone
authorized by you, and from which you received no benefit.

Default

You default under this Agreement if you fail to pay, by its due date,
the Total Minimum Payment Due listed on each billing statement;
file for bankruptcy; pay by a check or similar instrument that is not
honored or that we must return because it cannot be processed;
pay by automatic debit that is returned unpaid; or default under
any other Card Agreement that you have with us. If you default,
we may, subject to applicable law, close your account and demand
immediate payment of the total balance. For residents of New
Hampshire: Reasonable attorneys’ fees will be rewarded to you if
you prevail in any action or suit brought by BMO Harris Bank N.A.
Also, if you successfully assert a partial defense or counterclaim
to an action brought by BMO Harris Bank N.A, the court may
withhold from BMO Harris Bank N.A. the entire amount or such
portion of the attorneys’ fees as the court considers equitable.

Preauthorized Charges

If you default, if the card is lost or stolen, or we change your
account or account number for any reason, we may suspend
automatic charges on that account to third party vendors for
insurance premiums or other goods or services. If preauthorized
charges are suspended, you must contact the third party vendor to
reinstate them. You are responsible for making direct payment for
such charges until you reinstate automatic charges.

Collection Costs

If we refer collection of your account to a lawyer who is not our
salaried employee, to the extent not prohibited by applicable law,
you will be liable for any reasonable attorney’s fees we incur, plus
the costs and expenses of any legal action.

ARBITRATION

PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
IT PROVIDES THAT ANY DISPUTE MAY BE RESOLVED BY BINDING
ARBITRATION. ARBITRATION REPLACES THE RIGHT TO GO TO
COURT, INCLUDING THE RIGHT TO A JURY AND THE RIGHT TO
PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING. IN
ARBITRATION, A DISPUTE IS RESOLVED BY AN ARBITRATOR
INSTEAD OF A JUDGE OR JURY. ARBITRATION PROCEDURES ARE
SIMPLER AND MORE LIMITED THAN COURT PROCEDURES.

Agreement to Arbitrate

Either you or we may, without the other’s consent, elect
mandatory, binding arbitration for any claim, dispute, or
controversy between you and us (called “Claims”).

Claims Covered

•	
What Claims are subject to arbitration? All Claims relating
to your account, a prior related account, or our relationship
are subject to arbitration, including Claims regarding the
application, enforceability, or interpretation of this Agreement
and this arbitration provision. All Claims are subject to
arbitration, no matter what legal theory they are based on or
what remedy (damages, or injunctive or declaratory relief) they
seek. This includes Claims based on contract, tort (including
intentional tort), fraud, agency, your or our negligence, statutory
or regulatory provisions, or any other sources of law; Claims
made as counterclaims, cross¬claims, third-party claims,
interpleaders or otherwise; and Claims made independently
or with other claims. A party who initiates a proceeding in
court may elect arbitration with respect to any Claim advanced
in that proceeding by any other party. Claims and remedies
sought as part of a class action, private attorney general or
other representative action are subject to arbitration on an
individual (non¬class, non¬representative) basis, and the
arbitrator may award relief only on an individual (non¬class,
non-representative) basis.
•	
Whose Claims are subject to arbitration? Not only ours and
yours, but also Claims made by or against anyone connected
with us or you or claiming through us or you, such as a coapplicant or authorized user of your account, an employee,
agent, representative, affiliated company, predecessor or
successor, heir, assignee, or trustee in bankruptcy.
•	
What time frame applies to Claims subject to arbitration?
Claims arising in the past, present, or future, including Claims
arising before the opening of your account, are subject to
arbitration.
•	
Broadest interpretation. Any questions about whether Claims
are subject to arbitration shall be resolved by interpreting this
arbitration provision in the broadest way the law will allow it

to be enforced. This arbitration provision is governed by the
Federal Arbitration Act (the “FAA”).
•	
What about Claims filed in Small Claims Court? Claims filed
in a small claims court are not subject to arbitration, so long
as the matter remains in such court and advances only an
individual (non¬class, non¬representative) Claim.

How Arbitration Works

• H
 ow does a party initiate arbitration? The party filing
arbitration must choose one of the following two arbitration
firms and follow its rules and procedures for initiating and
pursuing an arbitration: American Arbitration Association or
JAMS. Any arbitration hearing that you attend will be held at a
place chosen by the arbitration firm in the same city as the U.S.
District Court closest to your then current billing address, or at
some other place to which you and we agree in writing. You
may obtain copies of the current rules of each of the arbitration
firms and forms and instructions for initiating an arbitration by
contacting them as follows:
American Arbitration Association
800-778-7879 (toll free) Website: www.adr.org
JAMS
800-352-5267 Website: www.jamsadr.com
	At any time you or we may ask an appropriate court to compel
arbitration of Claims, or to stay the litigation of Claims pending
arbitration, even if such Claims are part of a lawsuit, unless a
trial has begun or a final judgment has been entered. Even if a
party fails to exercise these rights at any particular time, or in
connection with any particular Claims, that party can still require
arbitration at a later time or in connection with any other
Claims.
•	
What procedures and law are applicable in arbitration?
A single, neutral arbitrator will resolve Claims. The arbitrator
will be either a lawyer with at least ten years experience or a
retired or former judge, selected in accordance with the rules of
the arbitration firm. The arbitration will follow procedures and
rules of the arbitration firm in effect on the date the arbitration
is filed unless those procedures and rules are inconsistent with
this Agreement, in which case this Agreement will prevail.
Those procedures and rules may limit the discovery available
to you or us. The arbitrator will take reasonable steps to
protect customer account information and other confidential
information if requested to do so by you or us. The arbitrator
will apply applicable substantive law consistent with the FAA
and applicable statutes of limitations, will honor claims of
privilege recognized at law, and will have the power to award
to a party any damages or other relief provided for under
applicable law. You or we may choose to have a hearing and
be represented by counsel. The arbitrator will make any award
in writing and, if requested by you or us, will provide a brief
statement of the reasons for the award. An award in arbitration
shall determine the rights and obligations between the named
parties only, and only in respect of the Claims in arbitration, and

shall not have any bearing on the rights and obligations of any
other person, or on the resolution of any other dispute.
•	
Who pays? Whoever files the arbitration pays the initial filing
fee. If we file, we pay; if you file, you pay, unless you get a
fee waiver under the applicable rules of the arbitration firm.
If you have paid the initial filing fee and you prevail, we will
reimburse you for that fee. If there is a hearing, we will pay
any fees of the arbitrator and arbitration firm for the first day
of that hearing. All other fees will be allocated as provided by
the rules of the arbitration firm and applicable law. However,
we will advance or reimburse your fees if the arbitration firm
or arbitrator determines there is good reason for requiring
us to do so, or if you ask us and we determine there is good
reason for doing so. Each party will bear the expense of that
party’s attorneys, experts, and witnesses, and other expenses,
regardless of which party prevails, but a party may recover any
or all expenses from another party if the arbitrator, applying
applicable law, so determines.
•	
Who can be a party? Claims must be brought in the name
of an individual person or entity and must proceed on an
individual (non¬class, non¬representative) basis. The arbitrator
will not award relief for or against anyone who is not a party.
If you or we require arbitration of a Claim, neither you, we, nor
any other person may pursue the Claim in arbitration as a class
action, private attorney general action or other representative
action, nor may such Claim be pursued on your or our behalf in
any litigation in any court. Claims, including assigned Claims, of
two or more persons may not be joined or consolidated in the
same arbitration. However, applicants, co-applicants, authorized
users on a single account and/or related accounts, or corporate
affiliates are here considered as one person.
•	
When is an arbitration award final? The arbitrator’s award
is final and binding on the parties unless a party appeals it in
writing to the arbitration firm within fifteen days of notice of the
award. The appeal must request a new arbitration before a panel
of three neutral arbitrators designated by the same arbitration
firm. The panel will consider all factual and legal issues anew,
follow the same rules that apply to a proceeding using a single
arbitrator, and make decisions based on the vote of the majority.
Costs will be allocated in the same way they are allocated for
arbitration before a single arbitrator. An award by a panel is final
and binding on the parties after fifteen days has passed. A final
and binding award is subject to judicial review and enforcement
as provided by the FAA or other applicable law.

Survival and Severability of Terms

This arbitration provision shall survive: (i) termination or changes in
the Agreement, the account, or the relationship between you and
us concerning the account; (ii) the bankruptcy of any party; and (iii)
any transfer, sale or assignment of your account, or any amounts
owed on your account, to any other person or entity. If any portion
of this arbitration provision is deemed invalid or unenforceable,
the entire arbitration provision shall not remain in force. No portion
of this arbitration provision may be amended, severed, or waived
absent a written agreement between you and us.

Credit Reporting

We may report information about your account to credit
bureaus. Late payments, missed payments, or other defaults
on your account may be reflected on your credit report. If
you request additional cards on your account for others, you
understand that we may report account information in your name
as well as in the names of those other people. We may also
obtain follow¬ up credit reports on you (for example, when we
review your account for a credit limit increase). If you wish to
know the names of the agencies we have contacted, write us at
the Customer Service address listed on the billing statement. We
will try to notify you by telephone or by mail of any legal process
served on us in order to give you an opportunity to object to
it, unless the law prohibits the notice. If you think we reported
erroneous information to a credit reporting agency, write us at
the Customer Service address listed on the billing statement.
We will promptly investigate the matter and if our investigation
shows you are right, we will contact each credit reporting agency
to whom we reported and will request they correct the report.
If we disagree with you after our investigation, we will tell you
in writing or by telephone and instruct you how to submit a
statement of your position to those agencies. Your statement will
become a part of your credit record with them. As required by
Utah law, you are hereby notified that a negative credit report
reflecting on your credit record may be submitted to a credit
reporting agency if you fail to fulfill the terms of your credit
obligations.

Consent to Telephone Calls and Monitoring

You authorize us (which includes, for the purposes of this
paragraph, our agents and representatives) to contact you using
automatic telephone dialing systems, artificial or prerecorded
voice message systems, email and text messaging systems in
order to provide you with information regarding your account,
including information about missed payments, the suspected
misuse of your card, or general servicing items. You authorize us
to make such contacts using any telephone numbers (including
wireless, landline and Voice Over Internet Protocol numbers) you
have supplied or will supply to us in connection with your account
or any other account you may have or will establish with us. You
understand that anyone with access to your telephone may listen
to or read the messages we leave or send you, and you agree that
we will have no liability for anyone accessing such messages. You
further understand that, when you receive a telephone call or text
message, you may incur a charge from the company that provides
you with telecommunications, wireless and/or data services, and
you agree that we will have no liability for such charges. You
expressly authorize us to monitor and record your calls with us.
You agree that you are the owner and/or primary user of any
telephone number or email address you provide to us and that
you will notify us if this is no longer true as to any such telephone
number or email address.

Closing Your Account

You may close your account at any time by notifying us in
writing. However, you remain responsible to pay the total balance

according to the terms of this Agreement. We may close your
account or suspend your account privileges at any time for any
reason not prohibited by applicable law without prior notice. We
may also reissue a different card, account number, or different
checks at any time. You must return the card or the checks to us
upon request.

Refusal of the Card

We are not responsible if a transaction on your account is not
approved, either by us or by a third party, even if you have
sufficient credit available. We may limit the number of transactions
that may be approved in one day. If we detect unusual or
suspicious activity on your account, we may temporarily suspend
your credit privileges until we can verify the activity.

Changing this Agreement

We may change the rates, fees, and terms of this Agreement
at any time for any reason. These reasons may be based on
information in your credit report, such as your failure to make
payments to another creditor when due, amounts owed to
other creditors, the number of credit accounts outstanding,
or the number of credit inquiries. These reasons may also
include competitive or market-related factors. Changing terms
includes adding, replacing, or deleting provisions relating to
your account and to the nature, extent, and enforcement of
the rights and obligations you or we may have relating to
this Agreement. These changes are binding on you. However,
if the change will cause a fee, rate, or minimum payment
to increase, we will mail you written notice, subject to
applicable law, or at least 45 days before the beginning of
the billing period in which the change becomes effective. If
you do not agree to the change, you must notify us in writing
prior to the effective date of the change and pay us the total
balance, either at once or under the terms of the unchanged
Agreement. Unless we notify you otherwise, use of the
card after the effective date of the change shall be deemed
acceptance of the new terms.

Enforcing this Agreement

We can delay in enforcing or fail to enforce any of our rights under
this Agreement without losing them.

Assignment

We may assign any or all of our rights and obligations under this
Agreement to a third party.

Applicable Law

The terms and enforcement of this Agreement shall be governed
by federal law and the law of Illinois, where we are located. This
Agreement and your account are governed by, to the extent that
state law applies, the law of Illinois without regard to its conflict
of law principles. Further, this Agreement is made in Illinois and
credit is extended to you from Illinois, regardless of where you live
or use your account.
For Maryland residents only, to the extent federal law and the
laws of the State of Illinois do not apply, this Agreement is

governed by Title 12, Subtitle 9 of the Maryland Commercial Law
Article.

New Jersey Residents

Because certain provisions of this Agreement are subject to
governing law, they may be void, unenforceable or inapplicable
in some jurisdictions. None of these provisions are void,
unenforceable or inapplicable with New Jersey.

Your Billing Rights: Keep this Document for Future
Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act

What To Do If You Find a Mistake On Your Statement

If you think there is an error on your statement, write to us at the
address for billing inquiries and correspondence shown on the
front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
•	
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
•	At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:

1.	Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2.	Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•	We cannot try to collect the amount in question, or report you
as delinquent on that amount.
•	The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
•	While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•	We can apply any unpaid amount against your revolving credit
limit.
After we finish our investigation one of two things will happen:
•	
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
•	
If we do not believe there was a mistake: You will have

to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.

Your Rights If You Are Dissatisfied With Your Credit
Card Purchases

If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.	The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2.	You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at the address for
billing inquiries and correspondence shown on the front of your
statement.
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

Banking products and services are subject to bank and credit approval and are provided
by BMO Harris Bank N.A. Member FDIC.
™	Diners Club, Diners Club International with the Split Circle Device and Club Cash are
registered trademarks of Diners Club International Ltd.
*	Mastercard is a registered trademark of Mastercard International Incorporated.

®/

®

© 2020 BMO Harris Bank N.A. All Rights Reserved.

F03-W760-1-0820

50338372 (09/20)

